OFFICE OF THE

APPELLATE DEFENDER
STATE OF NORTH CAROLINA
SUITE SOO
123 WEST MAIN STREET
DURHAM, NC 27701

GLENN GERDING
APPELLATE DEFENDER
EMAIL:

TELEPHONE:

(919) 354-721 0
FACSIMILE:

glenn.gerding@nccourts.org

(919) 354-7211

January 24, 2020
Mr. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Application for Extension of Time to File Response to Petition for
Writ of Certiorari in State of North Carolina v. James Harold
Courtney, III, No. 19-766

Dear Mr. Harris:
I am counsel of record for James Harold Courtney in State of North Carolina v. James
Harold Courtney, III, No. 19-766. The Court has requested that Mr. Courtney file a response to
the petition for writ of certiorari filed in this case on or before 18 February 2020.
Pursuant to Supreme Court Rule 30(4), Mr. Courtney respectfully requests an extension
of thirty days until 19 March 2020 to file his response. The bases for this request are that the
undersigned presented oral argument in the North Carolina Court of Appeals on 21 January 2020
in State v. Lail, 19-468, is scheduled for another oral argument in the North Carolina Court of
Appeals on 6 February 2020 in State v. Sheffield, 19-282, has a brief in a capitally tried, double
homicide case due for filing at the North Carolina Court of Appeals by 20 February 2020 in the
case of State v. Campbell, 19-1035, and that the undersigned's duties in other cases and within
the office have been significant during this time period as well.
Undersigned counsel has contacted counsel of record for the State ofNorth Carolina, Mr.
Matthew W. Sawchak, regarding the request for extension. Mr. Sawchak indicated the State's
consent to the extension.
Thank you for your attention to this matter.

~~~

Amanda S. Zimmer
Assistant Appellate Defender
Counsel of Record for Respondent

CERTIFICATE OF SERVICE
I, Amanda S. Zimmer, Assistant Appellate Defender, and a member of the bar of this
Court, hereby certify that on 24 January 2020 a copy of Mr. Courtney's LETTER OF
APPLICATION REQUESTING AN EXTENSION OF TIME TO FILE RESPONSE TO
PETITION FOR WRIT OF CERTIORARI, was served on petitioner's counsel of record, Mr.
Matthew W. Sawchak, N.C. Department of Justice, P.O. Box 629, Raleigh, NC 27602, by first
class mail, postage prepaid. I further certify that all parties required to be served have been
served.
This the 24th day of January, 2020.

nda S. Zimme
i
'
A~ istant Appellate efe er
Office of the Appellate Defender
123 West Main Street, Suite 500
Durham, North Carolina 27701
amanda.s.zimmer@nccourts.org
Counsel of Record for Respondent

